                   AUDIT REPORT

    Audit of NRC’s Management of Import/Export Authorizations


                     OIG-12-A-13       April 20, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  April 20, 2012




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations

                            J. E. Dyer
                            Chief Financial Officer

                            Margaret M. Doane
                            Director, Office of International Programs



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S MANAGEMENT OF IMPORT/EXPORT
                            AUTHORIZATIONS (OIG-12-A-13)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Management of Import/Export Authorizations.

The report presents the results of the subject audit. Agency comments provided on
March 8, 2012, and March 23, 2012, have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Kathleen Stetson, Team Leader, Financial and Administrative Audit Team,
at 415-8175.

Attachment: As stated
                                       Audit of NRC’s Management of Import/Export Authorizations



EXECUTIVE SUMMARY

   BACKGROUND

        The U.S. Nuclear Regulatory Commission’s (NRC) mission is to regulate
        the Nation’s civilian use of nuclear materials to ensure protection of public
        health and safety, promote the common defense and security, and protect
        the environment. One of the agency’s statutorily mandated responsibilities
        under the Atomic Energy Act of 1954, as amended (AEA), is to license the
        import and export of nuclear materials and equipment into and from the
        United States.

        NRC issues two types of licenses for the import and export of nuclear
        material: general licenses and specific licenses. The type of license
        required depends on the amount and type of nuclear material or equipment
        and the foreign country involved. A person may use an NRC general
        license as authority to import or export nuclear material or equipment if the
        item is covered by the NRC general licenses issued under regulation in Title
        10, Code of Federal Regulations (CFR), Part 110. If an import or export is
        not covered by the general license, a person must file an application with
        the Commission for a specific license. A specific import/export license is a
        paper document issued by the NRC on a case-by-case basis to a named
        person or entity for the proposed transaction(s) described in the license
        application form.

        NRC’s Office of International Programs (OIP) is assigned to process
        specific nuclear import/export licensing actions under 10 CFR Part 110 after
        receiving any necessary guidance from the Commission. OIP coordinates
        its license application review, as needed, with the Office of Federal and
        State Materials and Environmental Management Programs, the Office of
        Nuclear Security and Incident Response, the Office of Nuclear Material
        Safety and Safeguards, the Office of the General Counsel, and the
        Commission.




                                       i
                                                      Audit of NRC’s Management of Import/Export Authorizations



                OIP also coordinates with State government officials and representatives of
                regional low-level radioactive waste interstate compacts1 on applications for
                the import of waste materials. Additionally, OIP coordinates with the
                Departments of Energy and State on communications with foreign
                governments related to requirements of the AEA.

                From Fiscal Year (FY) 2008 through FY 2010, OIP completed between
                123 and 139 licensing actions per year. OIP has nine staff that spend part
                of their work effort on processing import and export license applications. In
                FY 2010, according to Human Resources Management System records,
                OIP staff charged approximately 2,670 staff-hours to billable licensing
                activities. Other program offices involved in reviewing import/export
                applications estimated they expended approximately an additional 969
                staff-hours in support of billable import/export licensing activities during the
                same period.

        OBJECTIVES

                The audit objectives were to determine whether NRC (1) properly reviews
                and approves import/export authorizations in a timely manner, (2)
                effectively coordinates this activity with other Federal agencies, and
                (3) efficiently and effectively coordinates import/export authorizations
                internally.

        RESULTS IN BRIEF

                In general, OIP is properly reviewing and approving import/export
                license authorizations (applications) in a timely fashion and
                coordinates effectively with external stakeholders. However, the
                Office of the Inspector General (OIG) identified opportunities for
                improvement for more efficient and effective internal coordination on
                import/export authorizations. Specifically,

                         A. OIP does not have a systematic approach to biennial fee
                            reviews and adjustments.
                         B. OIP does not reconcile import/export license application
                            revenue.

1
  Under the Low-Level Radioactive Waste Policy Amendments Act of 1985, States were given the
responsibility for disposal of their low-level radioactive waste. States were encouraged to enter into
agreements (compacts) to dispose of waste in common facilities. Currently, there are 10 interstate
compacts and 10 unaffiliated States.
                                                      ii
                                   Audit of NRC’s Management of Import/Export Authorizations



           C. OIP does not employ an adequate quality control review process
              over application files.

     Addressing these concerns will strengthen NRC’s internal control over
     import/export licensing.

RECOMMENDATIONS

     This report makes recommendations to improve the agency’s import/export
     licensing process. A consolidated list of these recommendations appears
     on page 25 of this report.

AGENCY COMMENTS

     OIG met with NRC management officials and staff during a March 8, 2012,
     exit conference. Subsequent to the exit conference, the agency provided
     informal comments. On March 21, 2012, OIG provided a revised draft
     report to the agency that incorporated changes OIG deemed appropriate
     after consideration of the agency’s informal comments. OIG met with
     agency management and staff on March 23, 2012, to discuss additional
     suggested changes to the report; subsequently, OIG incorporated additional
     informal comments into the draft report as appropriate. NRC staff reviewed
     the revised draft report and opted not to provide formal comments.




                                   iii
                                   Audit of NRC’s Management of Import/Export Authorizations



ABBREVIATIONS AND ACRONYMS

       AEA       Atomic Energy Act of 1954, as amended

       CFO       Chief Financial Officer

       CFR       Code of Federal Regulations

       DOI NBC   Department of Interior National Business Center

       FSME      Office of Federal and State Materials and Environmental

                 Management Programs

       FTE       Full-Time Equivalent

       FY        Fiscal Year

       GAO       Government Accountability Office

       HRMS      Human Resources Management System

       IAEA      International Atomic Energy Agency

       IOAA      Independent Offices Appropriations Act of 1952

       MD        Management Directive

       NMSS      Office of Nuclear Material Safety and Safeguards

       NRC       Nuclear Regulatory Commission (or Commission)

       NSIR      Office of Nuclear Security and Incident Response

       OBRA      Omnibus Budget Reconciliation Act of 1990, as amended

       OCFO      Office of the Chief Financial Officer

       OGC       Office of the General Counsel

       OIG       Office of the Inspector General

       OIP       Office of International Programs

       TAC       Technical Assignment Control




                                  iv
                                                  Audit of NRC’s Management of Import/Export Authorizations



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iv

        I.      BACKGROUND .............................................................................. 1

        II.     OBJECTIVES .................................................................................. 7

        III.    FINDINGS ....................................................................................... 7

                A. OIP Does Not Have a Systematic Approach to Biennial Fee
                   Reviews and Adjustments.......................................................... 8

                B. OIP Does Not Reconcile Import/Export License Application
                   Revenue……………………………………………………………18

                C. OIP Does Not Employ an Adequate Quality Control Review
                   Process Over Application Files ................................................ 22


        IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 25

        V.      AGENCY COMMENTS ................................................................. 26



        APPENDIX

                OBJECTIVES, SCOPE, AND METHODOLOGY........................... 27




                                                  v
                                                           Audit of NRC’s Management of Import/Export Authorizations




I.       BACKGROUND

                  The U.S. Nuclear Regulatory Commission’s (NRC) mission is to regulate
                  the Nation’s civilian use of nuclear materials to ensure protection of public
                  health and safety, promote the common defense and security, and protect
                  the environment. One of the agency’s statutorily mandated responsibilities
                  under the Atomic Energy Act of 1954, as amended (AEA) is to license the
                  import and export of nuclear materials and equipment into and from the
                  United States.

                  NRC regulations governing the import/export licensing process are provided
                  in Title 10, Code of Federal Regulations (10 CFR) Part 110, ―Export and
                  Import of Nuclear Equipment and Material.‖ 10 CFR Part 110 prescribes
                  licensing, enforcement, and rulemaking procedures for import and export
                  licenses. 10 CFR Sections 110.8, 110.9, and 110.9a list the nuclear
                  facilities, equipment, and materials under NRC import and export licensing
                  authority (e.g., special nuclear,2 source,3 and byproduct material,4 nuclear
                  reactor components, and equipment).

                  NRC issues two types of licenses for the import and export of nuclear
                  material: general licenses and specific licenses. The type of license
                  required depends on the amount and type of nuclear material or equipment
                  and the foreign country involved. A person may use an NRC general
                  license as authority to import or export nuclear material or equipment if the
                  item is covered by the NRC general licenses issued under regulation in
                  10 CFR Part 110. 10 CFR Sections 110.21 through 110.27 list the nuclear
                  materials and equipment authorized for import or export under general
                  license. If an import or export is not covered by the general license, a
                  person must file an application with the Commission for a specific license.
                  A specific import/export license is a paper document issued by NRC on a



2
  Special nuclear material includes plutonium, uranium-233, or uranium enriched above 0.711 percent by weight in the
isotope uranium-235.
3
 Source material includes (1) Natural or depleted uranium, or thorium, other than special nuclear material,
or (2) Ores that contain by weight 0.05 percent or more of uranium, thorium, or depleted uranium.
4
 Byproduct material includes any radioactive material (except special nuclear material) yielded in, or made radioactive
by, exposure to the radiation incident to the process of producing or utilizing special nuclear material.


                                                           1
                              Audit of NRC’s Management of Import/Export Authorizations



case-by-case basis to a named person or entity for the proposed
transaction(s) described in the license application form.

Specific licenses are categorized as either non-Appendix P or
Appendix P licenses. Non-Appendix P licenses refer to material and
equipment described in 10 CFR 110 Appendixes A through O.
These appendixes were codified into regulation between May 1978
and November 2000 and cover a broad range of nuclear materials
and equipment. Appendix P was codified into regulation on July 1,
2005. Appendix P covers 16 specific radionuclides primarily used in
industrial gauges and medical testing equipment.

This audit focuses on NRC’s processing of applications for new specific
import/export licenses, amendments, and renewals—collectively referred to
as import/export licensing actions—during Fiscal Year (FY) 2010. The
Office of the Inspector General (OIG) previously audited this program in
2004. That audit found that the Office of International Programs (OIP)
approved license applications in a timely manner and coordinated
effectively with other Federal agencies. However, license processing costs
were under-recovered and internal quality control measures required
improvement to correct documentation weaknesses. OIP developed written
procedures and quality control checklists in response to those findings.

Office of International Programs Coordination Role

OIP is assigned to process specific nuclear import/export licensing actions
under 10 CFR Part 110 after receiving any necessary guidance from the
Commission. OIP coordinates its license application review, as needed,
with the Office of Federal and State Materials and Environmental
Management Programs (FSME), the Office of Nuclear Security and Incident
Response (NSIR), the Office of Nuclear Material Safety and Safeguards
(NMSS), the Office of the General Counsel (OGC), and the Commission, as
follows:

          FSME advises on nuclear waste importation and exportation.
          NSIR confirms that physical security measures employed at
          foreign destinations are at least comparable to the
          recommendations in international guidance.




                              2
                                                      Audit of NRC’s Management of Import/Export Authorizations



                             NMSS confirms that export destinations are in compliance with
                             nonproliferation commitments including International Atomic
                             Energy Agency (IAEA) safeguards agreements.
                             OGC assists with legal matters pertaining to significant license
                             application issues.
                             The Commission reviews certain applications based on criteria
                             enumerated in 10 CFR Part 110.40.

                OIP also coordinates with State government officials and representatives
                of the regional low-level radioactive waste interstate compacts5 on
                applications for the import of waste materials. Additionally, OIP coordinates
                with the Departments of Energy and State on communications with foreign
                governments related to requirements of the AEA.

                Within NRC, OIP coordinates financial reporting functions with the Office of
                the Chief Financial Officer (OCFO). This coordination includes determining
                that fee revenue is received and recorded on NRC’s financial records.

                Processing of Import/Export Licensing Actions

                To request a specific import/export licensing action, applicants submit a
                completed NRC Form 7, ―Application for NRC Export or Import License,
                Amendment, Renewal, or Consent Request(s),‖ and an established
                application fee to the OIP Deputy Director. Staff in OIP review the
                application for completeness, including receipt of the correct fee amount,
                and coordinate with other NRC and Federal agency staff to obtain their
                views on a proposed licensing action as necessary. Before issuing a
                license, OIP management is expected to perform a final review of the
                contents of the import/export file to confirm that all required
                communications, approvals, and documents are present.




5
  Under the Low-Level Radioactive Waste Policy Amendments Act of 1985, States were given the
responsibility for disposal of their low-level radioactive waste. States were encouraged to enter into
agreements (compacts) to dispose of waste in common facilities. Currently, there are 10 interstate
compacts and 10 unaffiliated States.

                                                      3
                                                                 Audit of NRC’s Management of Import/Export Authorizations



                From FY 2008 through FY 2010, OIP completed between 123 and 139
                licensing actions per year. (In any given year, some applications may be
                withdrawn by the applicant or returned by OIP to the applicant without
                action, and some may take more than a year to process.) Table 1 shows
                the number of specific import and/or export licensing actions completed
                according to OIP records for FY 2008 through FY 2010.

                Table 1

                                                  Completed Licensing Actions FY 08 - FY 10
                                                 140
                                                                               139
                   Number of Licensing Actions




                                                          136
                                                 130


                                                 120                                                     123


                                                 110


                                                 100
                                                          2008                2009                      2010
                                                                           Fiscal Years

                Source: OIG analysis of OIP data

                Fees charged by NRC for a specific import/export license are established in
                10 CFR Part 170, ―Fees for Facilities, Materials, Import and Export
                Licenses, and Other Regulatory Services under the Atomic Energy Act of
                1954, as amended‖ and are published annually in the CFR. These fees are
                intended to correspond to the level of effort required to process the various
                licenses.

                During FY 2010,6 there were 11 levels of fees associated with 23 types of
                import/export licenses; fees ranged from $780 to process a minor
                amendment associated with an existing license to $16,900 to process a
                license application requiring review by the Commission.




6
 The audit period covered in this report is FY 2010, the most recent year for which complete data was
available at the time of fieldwork.

                                                                 4
                                                         Audit of NRC’s Management of Import/Export Authorizations



                   NRC’s authority to collect fees derives from the Independent Offices
                   Appropriations Act of 1952, as amended (IOAA), codified as 31 U.S. Code
                   9701 and the Omnibus Budget Reconciliation Act of 1990, as amended
                   (OBRA). IOAA states that agency services are to be self-sustaining to the
                   extent possible and that charges for services should be fair and based on
                   cost to the Government. OBRA provides a statutory basis for cost recovery
                   for NRC licensing and regulatory functions, stating, ―[A]ny person who
                   receives a service or thing of value from the Commission shall pay fees to
                   cover the Commission’s costs in providing any such service or thing of
                   value.‖

                   Biennial Fee Review

                   In accordance with the Chief Financial Officers Act of 1990 (CFO Act), NRC
                   is required, every 2 years, to review the fees it charges for services.
                   Management Directive (MD) 4.6, License Fee Management Program,
                   implements this legislative requirement and directs (1) the OCFO to
                   biennially review fees and (2) office directors to submit ―verified staff-hour
                   data‖ to OCFO in support of the fee review.

                   With regard to import/export licensing, OCFO establishes the fees based on
                   the estimated average number of hours spent by program office staff
                   processing specific license applications multiplied by the hourly rate
                   established by OCFO.7 To support the biennial fee review, OIP estimates
                   the average number of hours per license category spent by its staff
                   processing applications and collects the same type of data from NSIR,
                   NMSS, FSME, and OGC. These average hourly estimates are derived
                   from analysis of Technical Assignment Control (TAC) codes that NRC staff
                   use to capture their work activities in the agency’s time reporting system
                   (the Human Resources Management System, or HRMS) and augmented by
                   individuals’ recall of time spent on specific import/export licensing activities.
                   OIP submits aggregated agency-wide hourly averages per license category
                   to OCFO with any recommendations concerning fee adjustments. OCFO
                   multiplies OIP’s recommended average hours per license category by the
                   OCFO-calculated professional hourly rate to establish fees for the coming
                   year.




7
    OCFO’s calculation of the hourly rate is outside the scope of this audit.

                                                         5
                                                       Audit of NRC’s Management of Import/Export Authorizations



                Budget

                OIP has nine staff who spend part of their work effort on processing import
                and export license applications. In FY 2010, OIP budgeted six full-time
                equivalents (FTE) for license-related activities. Of the six FTEs, four are
                billable8 for the review and processing of import/export license applications.
                The two non-billable FTEs are used for generic licensing activities such as
                research and answering general questions from licensees.

                In FY 2010, according to HRMS records, OIP staff charged approximately
                2,670 staff-hours to billable licensing activities. Other program offices
                involved in reviewing import/export applications estimated they expended
                approximately an additional 969 staff-hours in support of billable
                import/export licensing activities during the same period.




8
 Billable FTEs are designed to recover the cost of providing individually identifiable services to specific
applicants and holders of licenses.

                                                       6
                                          Audit of NRC’s Management of Import/Export Authorizations




II.    OBJECTIVES

           The audit objectives were to determine whether NRC (1) properly
           reviews and approves import/export authorizations in a timely
           manner, (2) effectively coordinates this activity with other Federal
           agencies, and (3) efficiently and effectively coordinates import/export
           authorizations internally. The Appendix contains information on audit
           scope and methodology.



III.   FINDINGS

           In general, OIP is properly reviewing and approving import/export license
           authorizations (applications) in a timely fashion and coordinates effectively
           with external stakeholders. However, OIG identified opportunities for
           improvement for more efficient and effective internal coordination on
           import/export authorizations. Specifically,

                  A. OIP does not have a systematic approach to biennial fee
                      reviews and adjustments.
                  B. OIP does not reconcile import/export license application
                     revenue.
                  C. OIP does not employ an adequate quality control review
                     process over application files.

           Addressing these concerns will strengthen NRC’s internal control over
           import/export licensing.




                                          7
                                    Audit of NRC’s Management of Import/Export Authorizations



A.   OIP DOES NOT HAVE A SYSTEMATIC APPROACH TO BIENNIAL FEE
     REVIEWS AND ADJUSTMENTS



     OIP employs an ad hoc and inconsistent approach to identifying the hours
     and license applications to include in the agency’s biennial review of costs
     associated with import/export licensing activities. Specifically, OIP does not
     use a systematic method to:

           Determine staff hours spent reviewing import/export license
           applications.
           Determine the number of licensing applications per fee category.
           Adjust the average number of hours assigned per import/export
           license category as a result of the biennial fee review.

     These inconsistencies occur because OIP management does not provide
     sufficient quality control over data collection, data analysis, and use of
     biennial fee review results. As a result, OIP is not accurately charging
     licensees, also known as customers, and not receiving full reimbursement
     for the cost of providing these services.

     NRC Responsibility To Examine Biennial Fee Review
     Information

     NRC has the responsibility to ensure that data used in the mandated
     biennial fee review process is accurate and adjustments are made in a
     systematic manner so customers are charged equitable fees that reflect
     actual costs to the agency.

     Biennial Fee Review

     In addition to requirements to collect fees, NRC is required at least
     biennially to evaluate the costs to provide the services for which it charges
     a fee. The CFO Act lays out the review requirements. The CFO Act states:

           §902(a)(8) [NRC shall] review, on a biennial basis, the
           fees, … imposed by the agency for services … and
           make recommendations on revising those charges to
           reflect costs incurred by it in providing those services ….


                                    8
                               Audit of NRC’s Management of Import/Export Authorizations



NRC has included biennial fee review guidance in its MD 4.6, License Fee
Management Program, which provides direction for both the OCFO and
NRC office directors with regard to fee review. Section III D. (4) requires
office directors to:

      Submit verified staff-hour data on a biennial basis to the
      CFO to support the determination of ―flat‖ fees used for the
      assessment of materials license fees under the IOAA and
      10 CFR Part 170.

OIP’s policies and procedures mirror this requirement regarding the biennial
fee review process. OIP has two separate policy documents, one for non-
Appendix P applications, ―Procedures for Export/Import Licensing‖ (dated
November 2004) and one for Appendix P applications, ―Appendix P License
Processing Procedures‖ (undated). Both documents discuss the biennial
fee review and, with the exception of specifying the number of fee
categories, they are identical.

OIP Employs an Ad Hoc Approach to the Biennial Fee Review
Process

OIP employs an ad hoc and inconsistent approach to identifying the hours
and license applications to include in the agency’s biennial review of costs
associated with import/export licensing. Specifically, OIP does not use a
systematic method to:

          Determine staff hours spent processing import/export
          license applications.
          Determine the number of licensing applications per fee
          category.
          Adjust the number of hours assigned per import/export
          license category as a result of the biennial fee review.

While OIP staff drafted biennial fee review procedures, they were not
implemented in time for the most recent biennial fee review.




                               9
                                                     Audit of NRC’s Management of Import/Export Authorizations



                Inconsistent Time Tracking

                OIP uses unreliable and inconsistent methods to track staff time
                spent in support of import/export billable tasks in the biennial fee
                review process. As noted in the background section of this report,
                OIP supports the agency’s biennial fee review by determining the
                number of hours OIP and other program office staff charged to
                processing specific import/export license applications in each of the
                various types of fee-billable licensing activities9 during the biennial
                period under review. The OIP manager responsible for coordinating
                this effort explained that OIP and program office efforts are
                determined by compiling hours charged to each of the various HRMS
                TAC codes related to specific import/export activities and when this
                data is not available, talking with staff about what they worked on
                over the 2-year period.

                Reliance on existing TAC codes to assess OIP staff time spent on
                import/export licensing activities has been problematic in that some
                staff appear to be using incorrect codes to report their time. For
                example, the codes used to track OIP time spent on import/export
                licensing activities changed during the biennial review period and
                new code lists were distributed. The OIP manager recognized that
                staff needed further training on charging their time to the correct
                codes. Additionally, OIG’s analysis of OIP TAC code usage over the
                2-year period found OIP staff charged 18510 hours of import/export
                licensing activity to four codes associated with particular license
                categories but for which no licensing applications were received,
                worked on, or licenses issued during the period for these categories.
                The OIP manager tries to compensate for imprecise use of TAC
                codes by asking OIP staff to convey their recollections of what they
                worked on, and how much time they spent working on specific
                import/export cases, over the 2-year period and then making
                adjustments to the TAC code data. However, OIP staff do not
                maintain documentation to confirm their recollections of what they
                worked on and the OIP manager did not document the rationale for

9
 No fees are charged for certain licenses issued to educational and governmental institutions. A list of fee
exemptions may be found in 10 CFR Part 170.11.
10
  These 185 hours include 127 hours that OIP assigned to other licensing activities because of
―mischarges‖ and 58 hours which were not included in the biennial fee review analysis because the activity
was ―delete[d] w[ith the] 2010 rule change.‖

                                                     10
                               Audit of NRC’s Management of Import/Export Authorizations



any adjustments made to the TAC code data based on the
recollections of OIP staff.

The OIP manager also relies on the recollections of non-OIP staff as to
what import/export activity they worked on during the review period to
compensate for TAC codes that are not specific enough to properly capture
time spent on specific categories of import/export activity. For example,
some non-OIP offices have import/export TAC codes that include both
billable and non-billable activities. Furthermore, some non-OIP staff said
they charge time to one of several codes depending on whether time has
been charged to the code recently or not, without necessarily always
charging the same TAC for the same task. The OIP manager compensates
for the TAC code shortfalls by talking with non-OIP staff about what
applications they worked on over the past 2 years. However, there is no
documentation available to support non-OIP staff estimates of time spent
on billable licensing activities, and limited documentation supporting the
OIP manager’s adjustments to the non-OIP TAC code data.

Inconsistent Categorization of License Applications

OIP staff also use inconsistent methods to determine if a particular type of
application will be included in the counts of applications received and
licenses issued that are used in the biennial fee review. OIP keeps
information on active applications and licenses in two separate Microsoft
Access tracking systems. All OIP licensing staff have access to both
systems and can update records as information changes. OIP relies on the
Access tracking systems to develop two Microsoft Excel spreadsheets to
calculate the number of applications received and licensing actions
completed during the biennial period. OIG compared the data in Access to
the data in Excel and found that some applications listed in Access were
not included in Excel. OIP staff provided conflicting answers as to whether
certain types of application outcomes, such as those that are withdrawn by
the applicant or returned by OIP to the applicant, are included in the
biennial fee review count of applications. For example, of four applications
listed as withdrawn in OIP’s Access tracking systems, two were included in
the count of applications for the biennial fee review, and two were not. Five
returned applications were shown in OIP’s Access tracking systems as
completed; however, the Microsoft Excel spreadsheet shows four of these
as ―in process‖ and one is not included. OIP could not provide any



                              11
                                                   Audit of NRC’s Management of Import/Export Authorizations



               documentation to support the varying treatment of these applications for
               purposes of the biennial review of fees.

               Inconsistent Approach to Adjustments

               OIP does not have a systematic approach for recommending adjustments
               in the hours that serve as the basis for the license fees charged to
               customers. OIG compared the fee hours11 for five major import/export
               license levels against biennial fee review hours reported for these activities
               and noted that while trends in biennial fee review data appear to indicate a
               need to make corresponding changes in customer fees, such adjustments
               were not consistently made.

               Data in Table 2 compares the fee hours (shaded columns reflect fees
               published annually in CFRs) to biennial fee review hours by license level
               developed as a result of OIP’s biennial fee review (unshaded columns).
               The dates at the top of the shaded columns are the effective dates for the
               published CFRs. The dates at the top of the unshaded columns reflect the
               biennial fee review period. Comparing an unshaded column to the shaded
               column to its right allows one to see the relationship between the biennial
               fee review results and the actual published fees.




11
   For comparison purposes, OIG converted fee amounts into hours by dividing the fee listed in
10 CFR Part 170.21 by the professional staff hour rate in 10 CFR Part 170.20 to approximate the number
of fee hours represented by each fee.

                                                  12
                                                  Audit of NRC’s Management of Import/Export Authorizations



Table 2
                Comparison of Fee Hours to Review Hours by License Level
                04 - 06      04 - 06       06 - 08       06 – 08       08 – 10      08 – 10         2011
                             Biennial                    Biennial                   Biennial
                 CFRs          Fee          CFRs           Fee          CFRs          Fee          CFRs
                             Review                      Review                     Review

                 Fee         Review          Fee         Review         Fee         Review          Fee
                Hours*       Hours          Hours        Hours         Hours        Hours          Hours
 Level 1**       65           81.4           65            69           65            76            65
 Level 2         38           20.5           38            35           38            33            35
 Level 3         12           20.9           16            13           16            15            16
 Level 4          8           17.9           10            31           10            12            10
 Level 5         1.5           8              3             4            3            16             5
 * Fee hours are calculated from rate information in 10 CFR 170.20 and fees in 10 CFR 170.21.
 ** Levels correspond to the license classes found in 10 CFR 170.20 and 21: Level 1 = K1, 15A; Level 2 = K2,
 15B; Level 3 = K3, 15C; Level 4 = K4, 15D; and Level 5 = K5, 15E, 15R.
 Source: OIG analysis of OIP and CFR information



          Given that the biennial fee review results should be used to inform the fees
          published in the CFR, one would expect to see, for example, the 2004-2006
          study results reflected in 2006-2008 CFR adjustments. However, a
          comparison of fee hours reflected in the CFR fees to biennial fee review
          results showing hours spent on these license categories does not indicate a
          consistent relationship between these two data sets. For example, Table 2
          shows that Level 1 biennial fee review hours are consistently higher than
          fee hours used to calculate license costs in the CFR, but no adjustment has
          been made since 2004. Conversely, Level 2 biennial fee review hours are
          consistently lower than fee hours used to calculate license costs but no
          adjustment was made until 2011, and the fee hours used to calculate the
          license fee remain above actual hours. [Note: Numbers in bold indicate a
          change from the previously published information.]

          OIP supervisory staff said that they did not recommend adjusting the hours
          for each license level for various reasons, including staff turnover and the
          resulting learning curve for new staff assigned to work on the licensing
          actions, significantly atypical cases that skew the data, and a wish not to
          introduce price uncertainty for license applicants. OIP supervisory staff also
          said they are sensitive to the impact of license costs on their customers.
          Although OIP staff offered these explanations as examples of

                                                 13
                               Audit of NRC’s Management of Import/Export Authorizations



considerations taken into account when recommending adjustments in the
fee schedule, they provided limited documentation to support their
decisions or reflect OIP management discussion of the issues.
Furthermore, OIP could only provide limited objective, written criteria used
to support a decision whether to change the hours for each fee category.

Insufficient Control Over Biennial Fee Review Data

NRC’s approach to the biennial fee review is ad hoc and non-systematic
because OIP management does not provide sufficient quality control over
data collection, data analysis, and use of biennial fee review results. With
regard to data collection within the office, OIP does not have written
procedures for the proper charging of license types to specific TACs.
Additionally, management changed TAC definitions five times during the
latest biennial fee review period. According to OIP management, these
changes were not sufficiently communicated to staff, and formal training
was not provided. Finally, supervisory staff do not always review the
accuracy of import/export TACs charged by staff in HRMS to catch errors in
a timely manner.

OIP also has not communicated its requirements for TACs to support
specific import/export activities to other program offices. There is no
agreement between OIP and program offices as to which TACs should be
used to report hours for billable fee activities and which hours should be
included in OIP’s analysis. Nor is there agreement as to what activities are
billable and which should be more properly categorized as overhead or pre-
application work.

Furthermore, OIP management does not provide sufficient quality control
over data analysis and use of biennial fee review results. OIP staff
provided OIG the data used to support the most recent biennial fee review.
However, none of the supporting documentation contained a comparison
with prior biennial fee review results. The biennial fee review results are
reported to the CFO with only limited documentation of assumptions used
for adjustments or written analysis to support recommendations.
According to OIP managers, they know their caseload and specifics of their
small program and thus are able to make judgments and adjustments
based on program knowledge without formally documenting their reasoning.




                              14
                              Audit of NRC’s Management of Import/Export Authorizations



A well-managed biennial fee review process should include the following
quality control elements:

         Routine communications with and training for all involved
         staff in OIP and other program offices regarding
         requirements of the biennial fee review for billable
         import/export licensing activities.
         Routine interim reviews and certification of HRMS data to
         ensure overall internal consistency in time reporting
         practices.
         Documentation of the TAC number that should be charged
         for time spent on a particular license application on the
         checklist attached to the license application file.
         Documentation of criteria on whether and when to include
         revised, returned without action, withdrawn, and
         terminated licenses in the count of applications and
         completed licensing actions.
         Documentation of any assumptions and criteria used in
         collecting billable import/export licensing activities and
         their adjustments.
         Documentation of assumptions and criteria used in
         determining whether to apply biennial fee review results to
         hours used in fee-setting.




                             15
                                Audit of NRC’s Management of Import/Export Authorizations



NRC Under Recovered Its Costs

NRC is not accurately charging customers and not receiving full
reimbursement for the cost of providing these services. The data in Table 3
compares total hours billed to actual hours worked in the period per HRMS.
In no period did the fees charged by OIP fully recover the costs associated
with providing these services, as required by law.

        Table 3
                         Cost Recovery
                  Hours Billed to Hours Worked
         Biennial Period 2004 - 2006              2004 - 2006
                 Hours Billed                          2,297.25
                Hours Worked                           3,202.75
               Under Recovery                       28.27%
         Biennial Period 2006 - 2008              2006 - 2008
                 Hours Billed                           5,641.50
                Hours Worked                            6,097.00
               Under Recovery                        7.47%
         Biennial Period 2008 - 2010              2008 - 2010
                 Hours Billed                          4,718.50
                Hours Worked                           5,864.50
               Under Recovery                       19.54%
        Source: OIG analysis of OIP information


The estimated net effect of this ad hoc approach to the biennial fee review
and adjustment process is that OIP is consistently not recovering the cost of
providing import/export license application review services as required by
law.

OIG estimated the under recovery of import/export fees during FY 2010 by
comparing (a) hours worked related to import/export application processing
multiplied by the professional hourly rate charged for these licensing
activities against (b) the fee revenue ($611,000) reported by Department of
the Interior, National Business Center (DOI NBC) for import/export activities

                               16
                                                   Audit of NRC’s Management of Import/Export Authorizations



               for the same time period. This comparison indicated that NRC under
               recovered import/export licensing costs by approximately $325,000.12

               Recommendation

               OIG recommends that the Director, Office of International Programs:

               1. Develop, document, and implement a systematic biennial fee
                  review process.

               OIG recommends that the Executive Director for Operations together with
               the Chief Financial Officer:

                2. Develop program office TACs to specifically support import/export fee
                   billable licensing activities in all offices which have a role in this
                   licensing process.




12
  3,638.75 hours as reported in HRMS x $257.22 professional hourly rate = $935,959.27 (rounded to
$936,000) - $611,000 DOI NBC estimated fee revenue = $325,000 under recovery.

                                                  17
                                                    Audit of NRC’s Management of Import/Export Authorizations



        B.      OIP DOES NOT RECONCILE IMPORT/EXPORT LICENSE
                APPLICATION REVENUE

                OIP recorded receipt of import/export license fees submitted by at least one
                applicant in internal office records, but did not forward the funds to NRC’s
                lockbox13 as required by OIP policy. This error occurred because OIP
                procedures describing the fee handling process do not specifically instruct
                OIP employees on how to deposit revenue and OIP staff thought OCFO
                personnel were making the deposits. Furthermore, OIP does not have
                adequate separation of duties related to revenue and does not perform an
                adequate reconciliation to verify that submitted import/export license fees
                are, in fact, deposited in the agency’s account. As a result, NRC has not
                recovered all the money owed for services rendered.

                Revenue Collection Responsibility

                The Director of OIP is responsible for ensuring that import/export license
                revenue is received and properly tracked in NRC’s financial records. NRC’s
                MD 4.1, Accounting Policies and Practices, provides direction for both the
                OCFO and directors of offices that collect revenue. MD section 4.1-03
                directs these managers to ―Review and verify accounting information in
                agency accounting system reports for completeness and accuracy.‖ The
                Government Accountability Office in its Standards for Internal Control in the
                Federal Government emphasizes the need for control activities, including
                proper segregation of duties (separate personnel with authority to authorize
                a transaction, process the transaction, and reconcile the transaction);
                proper authorization; and appropriate documentation of transactions such
                as revenue collections and deposits.

                OIP policies state that the ―correct fee [must be] received‖ for an application
                to be considered complete. Further, ―All applications … must include the
                required processing fee. Processing of the request [application] cannot
                begin without the receipt of such fee.‖




13
  OIP policy provides that OIP staff should forward import/export license fee payments to the agency’s
lockbox located in St. Louis, Missouri.

                                                    18
                               Audit of NRC’s Management of Import/Export Authorizations



Not All Fee Revenue Was Deposited

OIG identified several instances where OIP recorded receipt of
import/export license fees, but the fee payments were not forwarded to the
lockbox and subsequently deposited in NRC’s bank account. OIG
compared FY 2010 data for one specific vendor from OIP records to DOI
NBC records. Of the 15 FY 2010 transactions for this vendor, OIG
identified eight instances where OIP recorded a $4,100 fee received, but
DOI NBC did not have a record of the fees being deposited. Each instance
concerned a credit card authorization provided by the applicant to NRC that
was not forwarded to DOI NBC for processing. This happened over a
period of at least 9 months. OIG staff provided OIP staff with information
concerning the eight credit card authorizations that did not appear to have
been received by DOI NBC. OIP and OCFO further researched these
specific instances and NRC subsequently collected $32,800 for licenses
issued, but for which NRC had not deposited the fees.

Inadequate Revenue Receipt and Reconciliation Procedures

This error occurred because OIP procedures describing the fee handling
process do not specifically instruct OIP staff on how to process credit card
authorizations. Furthermore, OIP employees thought OCFO personnel
were forwarding the authorizations to DOI NBC for processing. Similarly,
OCFO employees assumed OIP staff were forwarding the authorizations to
DOI NBC. OIP does not separate revenue receipt and recordation duties
among several staff, so the error was not noticed during routine reviews by
other staff. Furthermore, OIP does not perform an adequate reconciliation
to verify that submitted import/export license fees are, in fact, deposited in
the agency’s account and OIP supervisory staff do not conduct a routine
year-end revenue reconciliation.

Inadequate Revenue Receipt Procedures

OIP’s two policy and procedure documents provide inconsistent guidance
related to the receipt of payments by check and neither document
discusses how to handle payment by credit card. Non-Appendix P
procedures state, ―The transmittal form will forward to the CFO [emphasis in
original] a copy of the application and any check which has been received
from the applicant ….‖ Appendix P procedures state, ―The transmittal form
will be forwarded via Express Mail [emphasis in original] to the U.S. Bank,


                               19
                                                      Audit of NRC’s Management of Import/Export Authorizations



                  Government Lockbox … a copy of the application and any check which has
                  been received from the applicant ….‖ In addition to specifying different
                  destinations for OIP to send transmittal forms and checks, the placement of
                  the word ―copy‖ in the Appendix P procedures (―a copy of the application
                  and any check‖) does not provide clear guidance on who should receive the
                  original or the copy of the check. Finally, neither procedure addresses
                  credit card authorizations or other means of payment.14

                  According to an OCFO manager, it is OIP’s responsibility to send all
                  payments to DOI NBC.

                  Inadequate Revenue Reconciliation Procedures

                  OIP does not employ an effective revenue reconciliation process to identify
                  the instances where funds have been received but not deposited. OIP staff
                  receive a monthly report from DOI NBC detailing all deposits made, but
                  they do not use that report to perform a formal revenue reconciliation.
                  MD 4.1 requires the OIP Director to review and verify revenue reports;
                  however, OIP’s internal policies and procedures are silent on the issue of
                  funds reconciliation and separation of duties related to revenue receipt and
                  recordation. Furthermore, there is no office performance evaluation metric
                  related to revenue reconciliation.

                  NRC Is Owed Money for Licenses

                  Prior to this audit, NRC had not deposited at least $32,800 for import/export
                  licenses issued. Accordingly, NRC was not in compliance with OBRA
                  because the import/export license revenue did not cover the Commission’s
                  costs in providing their services.

                  In addition, OIP employees have not performed a reconciliation to confirm
                  whether there are any other instances of undeposited revenue.




14
     Other methods can include money orders and Intragovernmental Payment and Collection System transfers.

                                                     20
                              Audit of NRC’s Management of Import/Export Authorizations



Recommendations

OIG recommends that the Director, Office of International Programs:

3. Develop one or more import/export licensing-related performance
   evaluation metric(s) related to revenue reconciliation.

4. Develop policies and procedures related to fee revenue which
   include effective internal control. Specifically,
          Separation of duties related to fee revenue handling.
          Monthly reconciliations of receipts to deposits.
          Routine management review of fee revenue
          reconciliations.

5. Review and reconcile prior fee revenue receipts to licensing
   actions completed for which a fee was owed from 2008 – 2011 to
   verify that all revenue for import/export licenses has been
   collected and deposited.




                             21
                                    Audit of NRC’s Management of Import/Export Authorizations



C.   OIP DOES NOT EMPLOY AN ADEQUATE QUALITY CONTROL
     REVIEW PROCESS OVER APPLICATION FILES

     Internal control standards require that all transactions be clearly
     documented and the documentation should be readily available for
     examination. However, OIP application files do not always contain
     required information to support the issuance of the license. Sixty-
     three percent of completed import/export files reviewed by OIG
     contained checklists that were incompletely filled out or were missing
     one or more items identified in OIP’s policies and procedures as
     required documentation. Files were incomplete because OIP does
     not employ an effective quality control process over file
     documentation and management’s review and approval process is
     inadequate. Incomplete file documentation and inadequate
     management review has resulted in instances where licenses were
     issued without proof that all required documentation was included.
     Without an adequate quality control process for compiling and
     reviewing import/export files prior to completion, there is an
     increased chance that NRC could erroneously issue a license. Such
     action would be contrary to NRC’s mission to ensure adequate
     protection of public health and safety, promote the common defense
     and security, and protect the environment.

     Internal Control Standards

     GAO’s Standards for Internal Control in the Federal Government provide
     detailed guidance to all Federal agencies on the importance of internal
     control and a description of the elements of an effective control system.
     The standards highlight the importance of control activities, specifically
     ―proper execution of transactions and events,‖ and ―accurate and timely
     recording of transactions and events.‖ Furthermore, ―[i]nternal control and
     all transactions and other significant events need to be clearly documented,
     and the documentation should be readily available for examination.‖ When
     applied to the import/export licensing process, this standard means that all
     significant events in the licensing process should be documented and this
     documentation is to be accurate and accessible.




                                   22
                                Audit of NRC’s Management of Import/Export Authorizations



Checklists help ensure consistency and completeness in documenting all
significant events. They are also a risk management tool to help OIP staff
meet NRC’s mission objectives. OIP uses import/export file checklists
which are attached to each application file and include many of the required
steps to complete an application. These checklists vary based on the
application type and not all steps are required for all applications.
Checklists provide a place for OIP staff to indicate whether the application
is complete. The checklists provide areas to note coordination with other
NRC offices and Federal agencies.

Import/Export License Files Are Incomplete

OIG examined a sample of 19 import/export files from the total population of
164 applications received and/or completed during FY 2010 and found that
12 files (63 percent) were incomplete. Of the 12 incomplete files, 11 were
missing one or more items on the checklist (e.g., checklist items left blank
altogether, dates missing, and documentation missing from file) and 1 was
missing the checklist itself. When checklist items are left blank there is no
way to affirmatively determine whether the item is applicable. While the
majority of the file omissions appear relatively minor, three were significant.
In one case a license was issued without documentation of foreign
government consent in the file. In another there was no documentation
confirming that substantive issues raised during the review process were
resolved before the license was issued. In the third, a license was issued
for a combined import/export of an incorrect amount of nuclear material.
Additionally, four licenses were issued even though the checklist indicated
the application was incomplete.

Ineffective Quality Control

Import/export files were incomplete because OIP does not employ an
effective quality control process over file documentation.
Additionally, the checklists do not necessarily contain all required
steps, and all steps listed are not necessarily required. Although OIP
procedures include a requirement for management review of non-
Appendix P files before a license is issued, and OIP staff state that
management does perform such reviews, those reviews have not
resulted in complete files and there was no documented evidence
that a management review occurred. The Appendix P procedures do



                               23
                               Audit of NRC’s Management of Import/Export Authorizations



not provide any requirement for file review in advance of issuing a
license.

Licenses Issued Without Required Complete Documentation

Inadequate file review has resulted in quality control weaknesses where
licenses were issued without certification that all required documentation
had been gathered and reviewed prior to issuance of the license. Without
an adequate management control process for compiling and reviewing
import/export files prior to completion, there is an increased chance that
NRC could erroneously issue a license. Such action would be contrary to
NRC’s mission to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment.

Recommendations

OIG recommends that the Director, Office of International Programs:

      6. Document applicability or non-applicability of all steps on all
         checklists and the dates the steps were completed.

      7. Require that management document review and certification of
         license application file completeness before issuing an
         import/export license.




                              24
                                          Audit of NRC’s Management of Import/Export Authorizations



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Director, Office of International Programs:

          1. Develop, document, and implement a systematic biennial fee
             review process.

          OIG recommends that the Executive Director for Operations together with
          the Chief Financial Officer:

          2. Develop program office TACs to specifically support import/export
             fee billable licensing activities in all offices which have a role in
             this licensing process.

          OIG recommends that the Director, Office of International Programs:

          3. Develop one or more import/export licensing-related performance
             evaluation metric(s) related to revenue reconciliation.

          4. Develop policies and procedures related to fee revenue which
             include effective internal control. Specifically,
                 Separation of duties related to fee revenue handling.
                 Monthly reconciliations of receipts to deposits.
                 Routine management review of fee revenue reconciliations.

          5. Review and reconcile prior fee revenue receipts to licensing
             actions completed for which a fee was owed from 2008 – 2011 to
             verify that all revenue for import/export licenses has been
             collected and deposited.

          6. Document applicability or non-applicability of all steps on all checklists
             and the dates the steps were completed.

          7. Require that management document review and certification of license
             application file completeness before issuing an import/export license.




                                         25
                                     Audit of NRC’s Management of Import/Export Authorizations



V.   AGENCY COMMENTS


        OIG met with NRC management officials and staff during a March 8, 2012,
        exit conference. Subsequent to the exit conference the agency provided
        informal comments. On March 21, 2012, OIG provided a revised draft
        report to the agency that incorporated changes OIG deemed appropriate
        after consideration of the agency’s informal comments. OIG met with
        agency management and staff on March 23, 2012, to discuss additional
        suggested changes to the report; subsequently, OIG incorporated additional
        informal comments into the draft report as appropriate. NRC staff reviewed
        the revised draft report and opted not to provide formal comments.




                                     26
                                        Audit of NRC’s Management of Import/Export Authorizations



                                                                                      Appendix


OBJECTIVES, SCOPE, AND METHODOLOGY

        OBJECTIVES

        The audit objectives were to determine whether NRC (1) properly
        reviews and approves import/export authorizations in a timely
        manner, (2) effectively coordinates this activity with other Federal
        agencies, and (3) efficiently and effectively coordinates
         import/export authorizations internally.

        SCOPE

        This audit focused on reviewing the management and internal controls over
        the import/export licensing program during FY 2010. We conducted this
        performance audit at NRC headquarters (Rockville, Maryland) from
        June 2011 through November 2011. Internal controls related to the audit
        objectives were reviewed and analyzed. Throughout the audit, auditors
        were aware of the possibility or existence of fraud, waste, or misuse in the
        program.

        METHODOLOGY

        OIG reviewed relevant Federal regulations regarding import/export
        licensing, charging fees, reviewing fees, and coordinating with other NRC
        offices and Executive Branch agencies. Specifically, we reviewed the
        Omnibus Budget Reconciliation Act of 1990, as amended; the Chief
        Financial Officers Act of 1990, as amended, and the Atomic Energy Act of
        1954, as amended. OIG also reviewed agency guidance, including
        management directives and office policies and procedures that pertain to
        import/export license fees, and a prior NRC OIG audit report related to this
        topic. A sample of license files for FY 2010 was also examined.

        Additionally, OIG reviewed and analyzed data related to the import/export
        licensing process. Specifically, OIG reviewed the supporting documentation
        and data for five biennial fee reviews conducted from 2004 – 2010. OIG
        also reviewed import/export license fee revenue data from OCFO and DOI
        NBC.



                                       27
                               Audit of NRC’s Management of Import/Export Authorizations



OIG interviewed staff at the Departments of Energy and State regarding
NRC’s coordination with other Federal agencies. OIG also interviewed staff
at headquarters in Rockville, Maryland, who participate in activities related
to the management of import/export license application processing. These
interviews were conducted to obtain staff insights into the oversight and
implementation of the import/export license fee process.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

The audit work was conducted by Kathleen M. Stetson, Team Leader; Terri
L. Cooper, Audit Manager; Mary W. Meier, Senior Auditor; and Harluxsh S.
Gill, Student Intern.




                              28
